1

s‘

f
/

OFFICIAL NOTICE FROM COURT OF CRIMINAL APPEALS OF TEXAS
P.O. BOX 12308. CAPITOL STATION. AUSTIN, TEXAS 787M
OFFICIAL BUSINESS
US. POSTAGE » PITNEY BOWES
(/)
K
STATE OF TEXAS
jr
PENALTY FOR
PRIVATE USE /Qii
/V
. a
K

5/
P:
ROS

J g’JS701 $000.27°

£. 0000376979DEC 28 2020

12/23/2020
It?
RODRIGUEZ, HUMBERTO
6R$)403-00-A(2)
WR-81,853-02
The Court has dismissed withoSWhtten ^rdjer this subsequent application for a writ
of habeas corpus. TEX. CODE CraM^PRO^ATL 11.07, Sec. 4(a)-(c).
Deana Williamson, Clerk
HUMBERTO RODRIGUEZ JR.
HUGHES UNIT - TDC # 1017893
RT. 2, BOX 4400
GATESVILLE, TX 76597
1

/

$
7SS97

liillr,l,li'Mlii,lMlrM,lil,,lihi,V,iirllli|]lllinli

!
I
i

i

Electronically Filed
6/8/2020 11:10 AM
Hidalgo County District Clerks
Reviewed By: Alexandra Gomez

S.*-

Cause No. CR-0403-00-A(2)
Ex parte
Humberto Rodriguez,
Applicant

§
§
§
§
§

In the District Court
92nd Judicial District of
Hidalgo County, Texas

STATE’S RESPONSE TO APPLICATION
FOR A WRIT OF HABEAS CORPUS SEEKING RELIEF FROM FINAL
FELONY CONVICTION UNDER CODE OF CRIMINAL PROCEDURE,
ARTICLE 11.07

TO THE HONORABLE JUDGE OF SAID COURT:
COMES NOW the State of Texas, by and through the Criminal District
Attorney of Hidalgo County, and files this Response to Application for a Writ of
Habeas Corpus Seeking Relief from Final Felony Conviction under Code of
Criminal Procedure, Article 11.07, and would show that, pursuant to Section 3 of
Article 11.07 of the Texas Code of Criminal Procedure, no hearing is necessary in
this matter; and that, in fact, the application for a writ of habeas corpus should be
DISMISSED.
Nature of the Case
Applicant was indicted on one count of Capital Murder and one count of
Aggravated Kidnapping.

Applicant was found guilty by a jury and was

automatically sentenced to life imprisonment on count one and 28 years
imprisonment on count two.

App*2.

Electronically Filed
6/8/2020 11:10AM
Hidalgo County District Clerks
Reviewed By: Alexandra Gomez

Statement of Facts
The records of the case below reflect the following:
1. Applicant was indicted on one count of Capital Murder (count one) and one
count of Aggravated Kidnapping (count two).
2. On October 24, 2000, the jury returned a verdict of “Guilty” on the charge of
Capital Murder and on the charge of Aggravated Kidnapping. The State having
waived the Death penalty, the Trial Court sentenced Applicant to an automatic
sentence of Life imprisonment on count one, the jury assessed a sentence of 28
years imprisonment on count two.
3. Applicant filed a Notice of Appeal and on August 14, 2003, the Thirteenth
Court of Appeals reversed in part and affirmed in part Applicant’s conviction in
an unpublished memorandum opinion. [13-00-00771-CR].
4. On October 13, 2004, the Texas Court of Criminal Appeals reversed and
remanded this cause to the Thirteenth Court of Appeals. [Rodriguez v. State,
146 S.W.3d 674 (Tex. Crim. App. 2004)].
5. On October 18, 2007, the Thirteenth Court of Appeals affirmed Applicant’s
conviction in an unpublished memorandum opinion. [13-00-00771-CR].
6. Mandate issued on March 7, 2008.

2

Electronically Filed
6/8/2020 11:10AM
Hidalgo County District Clerks
Reviewed By: Alexandra Gomez

7. On April 28, 2014, Applicant filed his first application (hereinafter cited as
“AA1”) for writ of habeas corpus under the Texas Code of Criminal Procedure,
Article 11.07, alleging: (1) Actual Innocence - no intent; (2) Actual Innocence
State didn’t prove cause of death; (3) Legally innocent; (4) Indictment void;
(5) State lacked jurisdiction over murder; (6) Conflict of interest with trial
counsel also acting as appellate counsel; (7) Ineffective assistance of counsel
failure to object to jury charge; (8) Ineffective assistance of appellate counsel
didn’t represent applicant on remand and, (9) Unconstitutional scheme.
8. The State of Texas was served on June 6, 2014 and filed a response to
Applicant’s first application for writ of habeas corpus on June 23, 2014.
9. On January 21, 2015, the Court of Criminal Appeals issued a mandate vacating
the judgment in Count Two of Cause No. CR-0403-00-A.
10. Applicant now files his second application for writ of habeas corpus alleging
the existence of a new law that was not considered during the time of his first
application.
1 l.The State of Texas was served with applicant’s second writ of habeas corpus on
May 26, 2020, and the State’s response is, therefore, due no later than June 10,
2020. See Tex. Code Crim. Proc. art. 11.07 § 3(b) (2018).

Applicant continued the pagination from his application into his memo.
3

Electronically Filed
6/8/2020 11:10 AM
Hidalgo County District Clerks
Reviewed By: Alexandra Gomez

12.This Court must determine whether or not there are controverted, previously
unresolved facts material to the legality of Applicant’s confinement no later
than June 30, 2020. See id. at § 3(c).
Argument
I.

Lack of Jurisdiction.

In his sole ground, Applicant alleges that the State lacked jurisdiction.
Applicant’s allegation is based on the faulty premise that because the murder
happened in Mexico the State of Texas lacked jurisdiction. This issue was raised
in Applicant’s first application for writ of habeas corpus; the Court of Criminal
Appeals rejected said argument. This issue was also raised by Applicant on direct
appeal, and the Court of Criminal Appeals rejected the argument there as well.
Because the kidnapping—which occurred in Texas—was an element of the
offense, the State retained jurisdiction of the Capital Murder charge.

See

Rodriguez v. State, 146 S.W.3d 674 (Tex. Crim. App. 2004). Applicant does not
get another bite at the proverbial apple; any claims raised on direct appeal are
barred from reconsideration on post conviction writ. See Ex parte Schuessler, 846
S.W.2d 850 (Tex. Crim. App 1993).
Moreover, according to article 11.07 of the Code of Criminal Procedure,
subsequent applications for a writ of habeas corpus are generally barred from
consideration by the court:

4

Electronically Filed
6/8/2020 11:10 AM
Hidalgo County District Clerks
Reviewed By: Alexandra Gomez

If a subsequent application for writ of habeas corpus is filed after
final disposition of an initial application challenging the same
conviction, a court may not consider the merits of or grant relief
based on the subsequent application unless the application contains
sufficient specific facts establishing that:
a.

the current claims and issues have not been and could
not have been presented previously in an original
application or in a previously considered application
filed under this article because the factual or legal basis
for the claim was unavailable on the date the applicant
filed the previous application; or

b.

by a preponderance of the evidence, but for a violation
of the United States Constitution no rational juror could
have found the applicant guilty beyond a reasonable
doubt.

Tex. Code Crim. Proc. art. 11.07, §4(a) (2011).
The claim raised in Applicant’s second habeas application involves a
challenge to the conviction for “want of extra-territorial jurisdiction.” However,
Applicant fails to include sufficient specific facts establishing that his current claim
could not have been presented previously because the factual or legal basis for the
claim was unavailable as is required. See, e.g., Ex parte Evans, 964 S.W.2d 643,
647 (Tex. Crim. App. 1998). The writ application fails to set forth sufficient facts
establishing that an exception exists to article 11.07’s prohibition against
subsequent writs.
Applicant claims that the Court of Criminal Appeals erred in holding that the
State of Texas had jurisdiction based on a civil case from the Supreme Court of the
United States, viz. RJR Nabisco, Inc. v. European Cmty., 136 S. Ct. 2090 (2016).

5

Electronically Filed
6/8/2020 11:10 AM
Hidalgo County District Clerks
Reviewed By: Alexandra Gomez

However, Applicant fails to present any authority showing that the civil case that
he relies on has any bearing on the ruling from the Court of Criminal Appeals. In
RJR Nabisco, the Supreme Court of the United States settled a civil issue between
private entities arising from racketeering. See id.
The Supreme Court in RJR Nabisco states as follows:
It is a basic premise of our legal system that, in general,
“United States law governs domestically but does not rule the world.”
Microsoft Corp. v. AT&T Coqp., 550 U.S. 437, 454, 127 S. Ct. 1746,
167 L. Ed. 2d 737 (2007). This principle finds expression in a canon
of statutory construction known as the presumption against
extraterritoriality: Absent clearly expressed congressional intent to the
contrary, federal laws will be construed to have only domestic
application. Morrison v. Nat'l Austl. Bank Ltd., 561 U.S. 247, 255,
130 S. Ct. 2869, 177 L. Ed. 2d 535 (2010). The question is not
whether we think “Congress would have wanted” a statute to apply to
foreign conduct “if it had thought of the situation before the court,”
but whether Congress has affirmatively and unmistakably instructed
that the statute will do so. Id., at 261, 130 S. Ct 2869, 177 L. Ed. 2d
535. “When a statute gives no clear indication of an extraterritorial
application, it has none.” Id., at 255, 130 S. Ct. 2869, 177 L. Ed. 2d
535.
RJR Nabisco, Inc. v. European Cmty., 136 S. Ct. 2090, 2100 (2016).
The above quote shows that the case relied on by Applicant deals with basic
premises of the legal system as applied to federal statutes. The quote also shows
that the authority that the Supreme Court relied on existed at the time that the
Court of Criminal Appeals rejected Applicant’s argument. Therefore, Applicant
has not presented any new authority that did not exist at the time, and the authority
that Applicant presents is not applicable to the Capital Murder crime under the
6

Electronically Filed
6/8/2020 11:10 AM
Hidalgo County District Clerks
Reviewed By: Alexandra Gomez

laws of Texas, wherein one of the elements of the crim

-the kidnapping-

occurred in Texas. Furthermore, the State finds no such authority that might
support Applicant’s allegation that RJR Nabisco overrules the decision from the
Court of Criminal Appeals. Applicant’s sole ground is without merit and should
be dismissed.
WHEREFORE, PREMISES CONSIDERED, the State prays that the Court
enter findings of fact and conclusions of law, and recommend that the application
for a writ of habeas corpus be dismissed.
Respectfully submitted,
/s/ Rodolfo Martinez, Jr.
Rodolfo Martinez, Jr., Assistant
Criminal District Attorney
State Bar No. 24092769
Office of Criminal District Attorney
Hidalgo County Courthouse
100 E. Cano
Edinburg, Texas 78539
Telephone: (956)292-7600 ext. 8131
Telefax:
(956)318-2078
rodolfo.martinez@da.co.hidalgo.tx.us
Certificate of Compliance
I hereby certify that this document is in compliance with TEX. R. APP. P. 73.3 and
has the following number of words: 1859.
/s/ Rodolfo Martinez. Jr.
Rodolfo Martinez, Jr.
7

Electronically Filed
7/9/2020 6:20 PM
Hidalgo County District Clerks
Reviewed By: Alexandra Gomez

Cause No. CR-0403-00-A(2)
Ex parte

§

In the District Court

§

Humberto Rodriguez,

§

92nd Judicial District of

§

Applicant

§

Hidalgo County, Texas

FINDINGS OF FACT. CONCLUSIONS OF LAW.
RECOMMENDATION AND ORDER
Having considered the application for writ of habeas corpus, the State’s
response and all supplements and amendments thereto, and the Court’s files in the
above-numbered cause, including records of the underlying criminal case, the
Court makes the following Findings of Fact and Conclusions of Law:
FINDINGS OF FACT

1. Applicant was indicted on one count of Capital Murder (count one) and one
count of Aggravated Kidnapping (count two).
2. On October 24, 2000, the jury returned a verdict of “Guilty” on the charge of
Capital Murder and on the charge of Aggravated Kidnapping. Because the
State waived the Death penalty, the Trial Court sentenced Applicant to an

App*. 5

Electronically Filed
7/9/2020 6:20 PM
Hidalgo County District Clerks
Reviewed By: Alexandra Gomez

automatic sentence of Life imprisonment on count one. The jury assessed a
sentence of 28 years imprisonment on count two.
3. Applicant requested trial counsel act as appellate counsel through a motion filed
by said trial counsel. Trial counsel was not conflicted out.
4. Applicant filed a Notice of Appeal and on August 14, 2003, the Thirteenth
Court of Appeals reversed in part and affirmed in part Applicant’s conviction in
an unpublished memorandum opinion. [13-00-00771-CR].
5. On October 13, 2004, the Texas Court of Criminal Appeals, after granting the
State’s petition for discretionary review, reversed and remanded this cause back
to the Thirteenth Court of Appeals. [Rodriguez v. State, 146 S.W.3d 674 (Tex.
Crim. App. 2004)].
6. Applicant was not abandoned by his appellate counsel upon remand to the
Thirteenth Court of Appeals. Said counsel filed a supplemental brief with the
Thirteenth Court of Appeals.
7. On October 18, 2007, the Thirteenth Court of Appeals affirmed Applicant’s
conviction in an unpublished memorandum opinion. [13-00-00771-CR]
8. Mandate issued on March 7,2008.
9. On April 28,2014, Applicant filed his first application for writ of habeas corpus
under the Texas Code of Criminal Procedure, Article 11.07, alleging: (1) Actual
Innocence - not intent; (2) Actual Innocence

2

State didn’t prove cause of

Electronically Filed
7/9/2020 6:20 PM
Hidalgo County District Clerks
Reviewed By: Alexandra Gomez

death; (3) Legally innocent; (4) Indictment void; (5) State lacked jurisdiction
over murder; (6) Conflict of interest with trial counsel also acting as appellate
counsel; (7) Ineffective assistance of counsel - failure to object to jury charge;
(8) Ineffective assistance of appellate counsel - didn’t represent applicant on
remand and, (9) Unconstitutional scheme.
lO.The State of Texas was served on June 6, 2014 and filed a response to
Applicant’s fust application for writ of habeas corpus on June 23, 2014.
1 l.On January 21, 2015, the Court of Criminal Appeals issued a mandate vacating
the judgment in Count Two of Cause No. CR-0403-00-A. [Exhibit 1 hereto, a
copy of the mandate].
12.Applicant now files his second application for writ of habeas corpus alleging
the existence of a new law that was not considered during the time of his first
application.
13.The State of Texas was served with applicant’s second writ of habeas corpus.
14.This Court must determine whether or not there are controverted, previously
unresolved facts material to the legality of Applicant’s confinement no later
than June 30,2020.
15.Applicant alleges that the State lacked jurisdiction; Applicant’s allegation is
based on the faulty premise that because the murder happened in Mexico the
State of Texas lacked jurisdiction.

3

Electronically Filed
7/9/2020 6:20 PM
Hidalgo County District Clerks
Reviewed By: Alexandra Gomez

16.Applicant’s jurisdictional issue was raised in Applicant’s first application for
writ of habeas corpus; the Court of Criminal Appeals rejected said argument.
17.The jurisdictional issue was also raised by Applicant on direct appeal, and the
Court of Criminal Appeals rejected the argument there as well.
CONCLUSIONS OF LAW
1. The indictment in this case properly alleged jurisdiction within the State of
Texas. See Rodriguez v. State, 146 S.W.3d 674 (Tex. Crim. App. 2004).
2. Because the kidnapping—which occurred in Texas—was an element of the
offense, the State retained jurisdiction of the Capital Murder charge.

See

Rodriguez v. State, 146 S.W.3d 674 (Tex. Crim. App. 2004).
3. Applicant does not get another bite at the proverbial apple; any claims raised on
direct appeal are barred from reconsideration on post conviction writ. See Ex
parte Schuessler, 846 S.W.2d 850 (Tex. Crim. App 1993).
4. According to article 11.07 of the Code of Criminal Procedure, subsequent
applications for a writ of habeas corpus are generally barred from consideration
by the court:
If a subsequent application for writ of habeas corpus is filed after
final disposition of an initial application challenging the same
conviction, a court may not consider the merits of or grant relief
based on the subsequent application unless the application contains
sufficient specific facts establishing that:

4

Electronically Filed
7/9/2020 6:20 PM
Hidalgo County District Clerks
Reviewed By: Alexandra Gomez

a. the current claims and issues have not been and could
not have been presented previously in an original
application or in a previously considered application
filed under this article because the factual or legal
basis for the claim was unavailable on the date the
applicant filed the previous application; or
b. by a preponderance of the evidence, but for a violation
of the United States Constitution no rational juror
could have found the applicant guilty beyond a
reasonable doubt.
Tex. Code Crim. Proc. art. 11.07, §4(a) (2011).
5. Applicant fails to include sufficient specific facts establishing that his current
claim could not have been presented previously because the factual or legal
basis for the claim was unavailable as is required. See, e.g., Ex parte Evans,
964 S.W.2d 643, 647 (Tex. Crim. App. 1998).
6. The writ application fails to set forth sufficient facts establishing that an
exception exists to article 11.07’s prohibition against subsequent writs. Tex.
Code Crim. Proc. art. 11.07, §4(a) (2011).
7. Applicant fails to present any authority showing that the civil case that he relies
on, RJR Nabisco, Inc. v. European Cmty., 136 S. Ct. 2090 (2016), has any
bearing on the ruling from the Court of Criminal Appeals, Rodriguez v. State,
146 S.W.3d 674 (Tex. Crim. App. 2004).
8. The authority that the Supreme Court relied on in RJR Nabisco, Inc. v.
European Cmty., 136 S. Ct. 2090 (2016) existed at the time that the Court of
Criminal Appeals rejected Applicant’s argument.

5

Electronically Filed
7/9/2020 6:20 PM
Hidalgo County District Clerks
Reviewed By: Alexandra Gomez

9. Applicant has not presented any new authority that did not exist at the time, and
the authority that Applicant presents is not applicable to the Capital Murder
crime under the laws of Texas, wherein one of the elements of the crime—the
kidnapping—occurred in Texas.
RECOMMENDATION
It is the recommendation of this Court that Applicant’s second application
for writ of habeas corpus be dismissed.
ORDER
The Clerk of this Court is hereby ORDERED to certify copies of the
indictment, judgment and sentence in the above-numbered cause; all filings
relating to this application for Writ of Habeas Corpus, including the State’s
response and all supplements and amendments thereto; and this Findings of Facts,
Conclusions of Law, Recommendation and Order; and to send the foregoing to the
Texas Court of Criminal Appeals.
The Clerk is further ORDERED to provide copies of this Order to Applicant
and the State.
day of

SIGNED FOR ENTRY this 9th

September

imis M limgffii?
92^ Distmtt Coil]
6

, 2020.

Page 1
146 S.W.3d 674, *; 2004 Tex. Crim. App. LEXIS 1739, **

1 of 2 DOCUMENTS

Caution
As of: Dec 08, 2011
HUMBERTO RODRIGUEZ, JR., Appellant v. THE STATE OF TEXAS
NO. 1568-03
COURT OF CRIMINAL APPEALS OF TEXAS
146 S. W.3d 674; 2004 Tex Crim. App. LEXIS 1 739

October 13,2004, Delivered
NOTICE:

to twenty-eight years' confinement for the aggravated
kidnapping, and life imprisonment for the capital murder,
1 in which the aggravating factor was kidnapping. On
appeal, the court of appeals reversed the capital murder
conviction, holding that Texas did not have territorial
jurisdiction over the offense. Rodriguez v. State, 2003
Tex. App. LEXIS 6962, No. I3-00-771-CR, 2003 Tex.
App. LEXIS 6962 (Tex. App. - Corpus Christi, August 14,
2003). On the state's petition for discretionary review, we
are asked to consider whether this holding is correct.
Because the kidnapping was an element of the capital
murder and the kidnapping occurred in Texas, [**2] we
hold that the jurisdictional requirements of TEX. PEN.
CODE § 1.04(a)(1) are met, and we reverse the judgment
of the court of appeals as to the capital murder.

[**1] PUBLISH.

SUBSEQUENT HISTORY: On remand at Rodriguez v.
State, 2007 Tex. App. LEXIS 8261 (Tex. App. Corpus
Christi, Oct. 18, 2007)
PRIOR HISTORY:
ON STATE'S PETITION FOR
DISCRETIONARY REVIEW FROM THE
THIRTEENTH COURT OF APPEALS. HIDALGO
COUNTY.
Rodriguez v. Stale, 2003 Tex. App. LEXIS 6962 (Tex.
App. Corpus Christi, Aug. 14, 2003)
DISPOSITION:
Reversed as to capital-murder
conviction and remanded.

1 The state did not seek the death penalty.
COUNSEL: For APPELLANT: Hector J. Villarreal,
Edinburg, TX.

Appellant participated in a conspiracy to kidnap
Hector Salinas, a potential government witness in a
pending federal drug trial. 2 Salinas was taken from his
used-clothing store in McAllen, Texas, and transported to
Mexico, where he was tortured and killed.

For STATE: Matthew Paul, STATE'S ATTORNEY,
Austin, TX.
JUDGES: Johnson, J., delivered the unanimous opinion
of the Court.

After Salinas' disappearance, all seven
2
defendants were acquitted.

OPINION BY: Johnson

Section 1.04(a)(1) of the Texas Penal Code provides
for territorial jurisdiction "if either the conduct or a result
that is an element of the offense occurs inside this state."
We read this language in a manner that avoids ambiguity
and [*676] absurd results. Thus, we hold [**3] that the
phrase "that is an element of the offense" applies to both

OPINION
[*675] Appellant was convicted of aggravated
kidnapping and capital murder. The jury sentenced him

j

H

Page 2
146 S.W.3d 674, *; 2004 Tex. Crim. App. LEXIS 1739, **
"conduct" and "result."
Section 1.04(b) also defines the result element: "If
the offense is criminal homicide, a 'result’ is either the
physical impact causing death or the death itself." It is
undisputed that the result element of this murder did not
occur in Texas. Thus, territorial jurisdiction in this case
depends on whether one or more of the conduct elements
occurred in Texas.
To answer this question, the court of appeals looked
to the Texas capital-murder statute, which reads in
applicable part:
(a) A person commits an offense if the person
commits murder as defined under Section 19.02(b)(1)
and:
***
(2) the person intentionally commits the murder in
the course of committing or attempting to commit
kidnapping, burglary, robbery,
aggravated sexual assault, arson, obstruction or
retaliation, or terroristic threat under Section 22.07(a)(1),
(3), (4), (5), or (6)[.}
TEX. PENAL CODE § 19.03.
TEX. PENAL CODE § 19.02(b)(1), in turn reads:
(b) A person commits an offense if he:
(1) intentionally or knowingly causes the death of an
individual.
[**4]
The court of appeals attached great
significance to the fact that the capital-murder statute
refers to the murder statute and incorporates it by
reference, rather than setting out the elements of murder
separately:
Because the penal code's capital murder provision
explicitly directs us to its murder provision, we hold that
the offense of murder or an element of murder (either the
conduct or a result) must be committed within this state
in order for Texas to have jurisdiction over the offense of
capital murder.
Rodriguez v. State, No. 13-00-771-CR, 2003 Tex. App.
LEXIS 6962 at *8. Because none of the elements of the
murder occurred in Texas, the court of appeals held that
this state was without jurisdiction over the capital
murder.
The state argues that the reference to § 19.02(b)(1)
merely shows an intent by the legislature to limit the
application of capital murder to cases in which the
defendant "intentionally or knowingly causes the death of
an individual," thus preventing murders committed with
lesser levels of intent from being elevated to capital
murder.3

3
The other articulated ways of committing
murder, set out in §§ 19.02(b)(2) and (3), require
that a person
(2) intends to cause serious bodily injury and
commits an act clearly dangerous to human life
that causes the death of an individual; or
(3) commits or attempts to commit a felony,
other than manslaughter,
and in the course of and in furtherance of the
commission or attempt,
or in immediate flight from the commission
or attempt, he commits or attempts to commit an
act clearly dangerous to human life that causes
the death of an individual.
TEX. PENAL CODE § 19.02
[**5] The state's argument is supported by the
inclusion in § 19.03(a)(2) of limitations on the use of
terroristic threat for the required aggravating factor:
placing a single person in fear of bodily injury is
excluded, while threats which imperil numbers of people,
emergency workers, or the functioning of government or
public services may constitute the aggravating conduct.
After reviewing the aggravating factors set out in §
19.03(a)(1-8), we are [*677] persuaded that the
legislature’s inclusion of the elements of § 19.02(b)(1) in
the capital-murder statute by reference only was not
intended to require that the murder be committed in
Texas, but was an expression of the legislature's desire to
limit capital murder to intentional and knowing murders
that are committed in circumstances that the legislature
found particularly egregious.
In Patrick v. State, 906 S.W.2d 481 (Tex. Crim. App.
1995), this Court discussed the elements that the state is
required to prove in a prosecution for capital murder:
In proving capital murder, the State must prove that
the accused intentionally or knowingly caused the death
of an individual and also that the accused engaged in
other criminal [**6] conduct (i.e., kidnapping, robbery,
aggravated sexual assault, escape from a penal
institution) or had knowledge of certain circumstances
(i.e., that the victim was a peace officer). We have
therefore recognized that capital murder is a result of
conduct offense which also includes nature of
circumstances and/or nature of conduct elements
depending upon the underlying conduct which elevates
the intentional murder to capital murder.
Patrick, 906 S.W.2d at 491, citing Hughes v. State, 897
S.W.2d 285 (Tex.Crim.App.1994). Thus, under our case
law, the aggravating "nature of circumstances and/or
nature of conduct elements" are elements of the offense

'« r

Page 3
146 S.W.3d 674, *; 2004 Tex. Crim. App. LEXIS 1739, **
of capital murder. See also, Reyes v. Stale, 84 S. W. 3d
633, 636 (Tex. Crim. App. 2002).
In this case, the state alleged and proved murder in
the course of kidnapping. The kidnapping was the
required aggravating "nature of conduct" element that
elevated the offense from murder to capital murder. The
kidnapping occurred in Texas, thus Texas has territorial
jurisdiction over the offense under Section 1.04(a)(1) of
the Penal Code.

We reverse the judgment of the [**7] court of
appeals as to the capital-murder conviction, and remand
the matter to that court for further action consistent with
this opinion.
Johnson, J.
Delivered: October 13, 2004

NUMBER 13-00-771-CR

COURT OF APPEALS
THIRTEENTH DISTRICT OF TEXAS
CORPUS CHRISTI - EDINBURG
Appellant,

HUMBERTO RODRIGUEZ, JR.

v.
Appellee.

THE STATE OF TEXAS

On appeal from the 92nd District Court of Hidalgo County, Texas.

OPINION
Before Chief Justice Valdez and Justices Yanez and Rodriguez
Opinion by Justice Yanez
By seven points of error, appellant Humberto Rodriguez, Jr. challenges his
conviction for the aggravated kidnapping and capital murder of Hector Salinas after a jury
found him guilty of both offenses. The jury assessed punishment for the aggravated
kidnapping to be twenty-eight years confinement. As for the capital murder, the State did

Appx* &

not seek the death penalty and the judge sentenced appellant to life in prison. The trial
court has certified that this case is not a plea bargain case and the defendant has the right
of appeal. See Tex. R. App. P. 25.2(a)(2). We affirm in part, and reverse and render in
part.
I. Facts
Briefly, the State alleges appellant was part of a conspiracy to kidnap Hector Salinas
in McAllen, Texas, then torture and murder him in Mexico. The following testimony outlines
the evidence.
A. Non-accomplice Testimony
1. Background Regarding the Victim
DEA agent Tony Dominguez testified: Hector Salinas was arrested when drugs
were found at his second-hand clothing store in McAllen on May 1,1997; he made a deal
to implicate the individuals for whom he was storing the drugs and was released the next
day; and he was scheduled to testify in a federal trial on July 21, 1997.
Guadalupe Salinas, Hector’s wife, testified that she saw appellant come to Hector’s
store the day before the kidnapping to ask him about a car in front of the store that was for
sale.
2. Background Regarding Appellant
Juanita Mendoza, the wife of appellant's cousin, Victor Hugo Rojas, testified that
appellant visited their home in McAllen two or three times in a green Suburban shortly
before July 17, 1997, the date of the kidnapping.
Juan Garcia, an acquaintance of the appellant, testified that appellant often stayed

2

at a mobile home in the same area as his own and he had seen a dark Suburban parked
near that mobile home.
Texas Ranger Israel Pacheco testified that, during his interview with appellant,
appellant gave his address as the mobile home Garcia indicated.
3. The Crime
Eyewitnesses Pedro Magana and Jose Antonio Salinas, Hector’s brother, testified:
a green Suburban with dark windows arrived at Hector’s store during the evening of July
17,1997; a man got out and asked about a car that was for sale in front of the store; the
man asked for Hector; after Hector identified himself, the man grabbed Hector and put a
gun to his head; then, several men jumped out of the Suburban; and they pushed Hector
into the Suburban. Jose Antonio further testified that the vehicle had Mexican license
plates.
4. The Aftermath
Police officer Guadalupe Cavazos testified that a burned Suburban was found about
a mile away from the store just hours after the kidnapping. Cavazos also testified that a
can of charcoal lighter fluid, a pair of handcuffs and a beer can were found with the burned
Suburban.
Lead detective Ralph Ramirez testified that he was notified of a body discovered
wrapped in a blanket in Reynosa, Mexico on July 22, 1997. He further testified that the
license plate found with the burned Suburban was traced by Mexican police and was found
to be registered to a green Chevy Suburban.
Hector’s wife testified that she was able to confirm the identity of the body found in

3

Reynosa as her husband.
Fulgencio Salinas testified that he performs autopsies and reviewed the autopsy
report done by Dr. Ruben Santos, who is now deceased. He testified that the autopsy
report indicated: the body was badly decomposed; the man had been dead for four to five
days; the most likely cause of death was asphyxiation; and there was evidence that a
plastic bag had been placed over the head and held in place with duct tape.
Evidence technician Miguel Alcantar and latent print examiner Heriberto Vigil
testified that they were able to identify the thumbprint from the body as belonging to
Hector.
B. Accomplice Testimony
Jose Angel Wyant and Freddy Camacho, two of the many accomplices to the crime,
testified at trial that appellant was involved. Each has been imprisoned for his part in this
crime.
Wyant offered the following relevant testimony: one of the other accomplices called
Hector shortly before the kidnapping to tell him to be outside so they could look at the car
for sale in front of the store; later on, appellant was at the house in Mexico; appellant was
one of three in the room with Hector and hit him; Hector was hit several times with fists
and a. handgun; as a result, Hector was bleeding; Hector’s eyes were not visible; Hector
couldn’t move; appellant left; and another accomplice strangled Hector.
Accomplice Freddy Camacho testified: he was approached by Rojas, who was
accompanied by appellant, about the kidnapping and they spoke for thirty minutes; he
overheard a twenty-minute phone call a few hours before the kidnapping from Rojas to

4

appellant in which arrangements were made;. Rojas then called Hector and made plans
to look at the car for sale in front of the store; appellant drove the green Suburban to the
meeting place-Rojas’s home, to Hector’s store, and to the burn site in the hours before the
kidnapping; after the kidnapping, appellant switched vehicles and got in a brown van with
other accomplices to take Hector across the border; at the checkpoint, appellant told
Hector not to scream or do anything out of the ordinary or else he would face the
consequences; once at a house in Mexico, appellant and two others took Hector to the
bedroom and tied him face down to the bed with an extension cord and bed sheets; all
three were on top of Hector and hitting him; and during the beating appellant threatened
Hector’s son.
C. Epilogue
The search for other accomplices continues. Meanwhile, the federal trial, in which
Hector was supposed to testify, ended in an acquittal for all seven defendants.
II. Elements of the Offenses
A person commits aggravated kidnapping by intentionally or knowingly abducting
another with the intent to inflict bodily injury on that person. Tex. Pen. Code Ann. §
20.04(a)(4) (Vernon 2003). Abduction is a continuous and ongoing event, for which there
is no time limit. Weaver v. State, 657 S.W.2d 148, 150 (Tex. Crim. App. 1983) (citing
Sanders v. State, 605 S.W.2d 612, 614 (Tex. Civ. App. 1980)).
The penal code section that defines capital murder directs readers to the code
section regarding murder. Tex. Pen. Code Ann. §19.03 (Vernon 2003). That section
provides, “A person commits [murder] if he ... intentionally or knowingly causes the death

5

of an individual.” Id. § 19.02(b)(1). The capital murder section completes the definition of
capital murder by adding, “and ... the person intentionally commits murder in the course
of committing .. . kidnapping.” Id. § 19.03(a)(2).
III. Analysis
A. Territorial Jurisdiction
By his first point of error, appellant contends the State lacks jurisdiction to charge
him.with,capital murder... We.agree...
Section 1.04 of the penal code provides, This state has jurisdiction over an offense
that a person commits ... if either the conduct or a result that is an element of the offense
occurs inside this state." Tex. Pen. Code Ann. § 1.04(a)(1) (Vernon 2003). This Court has
considered section 1.04 and determined that it gives the State of Texas jurisdiction over
an offense if the offense or an element of the offense is committed within the state. See
Salazar v. State, 711 S.W.2d 720, 724 (Tex. App.-Corpus Christi 1986, pet. refd).
Here, there is no evidence that either the offense of murder or any of its elements
we:re committed in Texas. Not only did the torture and strangling (conduct), which caused
the death, take place in Mexico, but the body (result) was found in Mexico, too. In other
words, neither “the conduct or a result that is an element of [murder] occurred] inside this
state.” Tex. Pen. Code Ann. § 1.04(a)(1) (Vernon 2003).
Because the penal code’s capital murder provision explicitly directs us to its murder
provision, we hold that the offense of murder or an element of murder (either the conduct
or a result) must be committed within this state in order for Texas to have jurisdiction over
the offense of capital murder.

6

Consequently, the State did not have jurisdiction over the offense of capital murder.
Had an element, either the conduct or a result, of the offense of murder occurred in this
state, then Texas would have jurisdiction over the offense of capital murder. However, that
is not the case here. Appellant’s first point of error is sustained. The remainder of the
analysis will focus on the aggravated kidnapping conviction.
B. Accomplice Corroboration
By his third point of error, appellant contends the State failed to corroborate the
testimony of accomplice witnesses. We disagree.
Article 38.14 of the code of criminal procedure provides, “[a] conviction cannot be
had upon the testimony of . . . accomplice[s] unless corroborated by other evidence
tending to connect the defendant with the offense committed; and the corroboration is not
sufficient if it merely shows the commission of the offense.” Tex Code Crim. Proc. Ann.
art. 38.14 (Vernon 1979).

To determine whether the accomplices’ testimony is

corroborated, we eliminate the accomplices’ testimony and review the remaining evidence
to determine whether it tends to connect appellant to the offense. Munoz v. State, 853
S.W.2d 558, 559 (Tex. Crim. App. 1993) (emphasis added). The corroborative evidence
need not directly link appellant to the crime or be sufficient in itself to establish guilt
McDuffv. State, 939S.W.2d607,612 (Tex. Crim. App. 1997). The corroborative evidence
may only be circumstantial. Brown v. State, 672 S.W.2d487,488 (Tex. Crim. App. 1984).
When the testimony of the accomplices is eliminated from our consideration, the
non-accomplice testimony outlined earlier demonstrates: (1) appellant was at the scene
of the crime the day before asking about a car for sale in front of the store; (2) appellant

7

a

had been seen driving a green Suburban shortly before the crime;

(3) Hector was

kidnapped by men who asked about the car for sale in front of the store;

(4) the

kidnappers drove a green Suburban with Mexican license plates; (5) a burned green
Suburban with Mexican license plates was found near Hector’s store a few hours after the
kidnapping; and (6) handcuffs were found with the burned Suburban.
This non-accomplice testimony tends to connect appellant to the offense. Munoz,
853 S.W,2d 559. As such, the State did not fail to corroborate the accomplices’ testimony.
Appellant’s third point of error is overruled.
C. Legal Sufficiency
By his second point of error, appellant contends the trial court erred by denying his
motion for directed verdict because there is not legally sufficient evidence to prove
aggravated kidnapping. We disagree.
The basis of appellant’s motion was the State’s alleged failure to corroborate the
accomplices’ testimony and otherwise provide sufficient evidence to prove aggravated
kidnapping. Having concluded that the accomplices’ testimony was corroborated, we now
examine.appellant’s challenge to the legal sufficiency of the evidence as a whole.
For a legal sufficiency challenge, we review the evidence in a light most favorable
to the verdict to determine whether any rational trier of fact could have found the essential
elements of the offense beyond a reasonable doubt. Jackson v. Virginia, 43 U.S. 307,319
(1979); Johnson v. State, 23 S.W.3d 1,7 (Tex. Crim. App. 2000); Rosillo v. State, 953
S.W.2d 808, 811 (Tex. App.-Corpus Christi 1997, pet. ref d). As fact finder, the jury is the
exclusive judge of the credibility of witnesses and the weight to be afforded their testimony.

8

Chambers v. State, 805 S.W.2d 459, 461 (Tex. Crim. App. 1991). The jury is free to
accept one version of the facts, reject another, or reject all or any of a witness’s testimony.
Penagraph v. State, 623 S.W.2d 341, 343 (Tex. Crim. App. 1981). Sufficiency of the
evidence is measured by the hypothetically correct jury charge, which accurately sets out
the law, is authorized by the indictment, and does not unnecessarily increase the State’s
burden of proof. Malik v. State, 953 S.W.2d 234, 240 (Tex. Crim. App. 1997); Cano v.
State, 3 S.W.3d 99, 105 (Tex. App.-Corpus Christi 1999, pet. ref’d). In conducting this
analysis, we may not re-weigh the evidence and substitute our judgment for that of the jury.
King v. State, 29 S.W.3d 556, 562 (Tex. Crim App. 2000).
At trial, the State called two accomplices to testify as to appellant’s involvement in
the kidnapping. The testimony outlined earlier demonstrates that appellant was involved
in: (1) the planning of the kidnapping in McAllen; (2) the kidnapping itself; (3) transporting
Hector to a house in Mexico; and-(4)-torturing him there.
After measuring the legal sufficiency, we conclude the evidence adduced from the
accomplices and others was sufficient to allow a jury to find the elements of aggravated
kidnapping (intentional/knowing abduction, intent to inflict bodily injury) beyond a
reasonable doubt We hold that the evidence is legally sufficient to support appellant’s
conviction for aggravated kidnapping. The trial court did not err by denying appellant’s
motion for directed verdict. Appellant’s second point of error is overruled.
D. The Rule
In his fourth point, appellant contends the trial court abused its discretion by

9

exempting Texas Ranger Israel Pacheco from rule of evidence 614.1 We agree, but hold
that the error is harmless.
“The purpose of placing witnesses under the sequestration rule... is to prevent the
testimony of one witness from influencing the testimony of another.” Bell v. State, 938
S.W.2d 35,50 (Tex. Crim. App. 1996). The party seeking an exception under rule 614 has
the burden of showing that one of the enumerated sections is met. Bath v. State, 951
S.W.2d 11,23 (Tex. App.-Corpus Christi 1997, pet. ref’d). If the prosecution claims that
the witness’s presence is essential to the presentation of its cause (a section three
exception), as is the situation here, a “showing” is required. Id. (quoting Barnhill v. State,
779 S.W.2d 890, 892-93 (Tex. App.-Corpus Christi 1989, no pet.)). “[A] conclusory
explanation does not constitute the showing contemplated by [rule 614].” Hernandez v.
State, 791 S.W.2d 301, 306 (Tex. App.-Corpus Christi 1990, pet. refd) (prosecutor’s
explanation that it would be “necessay and essential” for him to confer with requested
witness during testimony is conclusory); see Barnhill, 779 S.W.2d at 892 (prosecutor’s
explanation that requested witness is a caseworker is not a showing). “It is within the trial
court’s discretion to decide if a requested exemption from . . . rule [614] is justified.”
Aguilar v. State, 739 S.W.2d 357, 358-59 (Tex. Crim. App. 1987); see Bell, 938 S.W.2d
■ at 50.

After the jury had been selected, but prior to the first witness, the State requested
an exception to rule 614 for Pacheco, so he could remain in the courtroom at counsel table
1 Rule of evidence 614 provides, “At the request of a party the court shall order witnesses excluded
so that they cannot hear the testimony of other witnesses.” Tex. R. Evid. 614(3). However, the rule “does not
authorize exclusion of: a person whose presence is shown by a party to be essential to the presentation of
the party’s cause.” Id. Practitioners commonly use the phrase “invoking the rule” when they request that the
trial court exclude the witnesses during testimony.

10

to assist the State in presenting its case. In support of the request, the State said:
The evidence is going to show that federal agents from the DEA, the FBI, the
McAllen police were involved, the Texas Rangers were involved in this case.
Now, this is a fairly complicated case, a very complicated case, and for that
reason we are requesting that you allow a witness to remain in the courtroom
throughout the trial and his name being Israel Pacheco. He is from the
Texas Rangers.
The defense objected and stated:
[Pacheco] is a very exculpatory witness to the Defense. To allow him to stay
in the courtroom would ... provide the State with the opportunity to educate
Mr. Pacheco as to how we are going to proceed with our defense. They
have invoked the rule and we will stand by it.... [Furthermore, Pacheco] is
not the case agent.
The State responded by explaining that, “[Pacheco] brought the case to the District
Attorney’s office and conferred with the District Attorney’s Office.” The trial court then
decided to allow the exception for Pacheco.
At that point, the trial court erred because the State’s explanation was conclusory.
The State merely informed the court that Pacheco was a Texas Ranger who brought the
case to the prosecution and discussed it with them, which does not meet their burden to
show that the exception to rule 614 was warranted. See Hernandez, 791 S.W.2d at 306;
Barnhill, 779 S.W.2d at 892; see also Peters v. State, 997 S.W.2d 377, 385 (Tex.
App.-Beaumont 1999, no pet.) (“The Rule contains no express exception for
investigators.”). Such an explanation is not a showing and lies in contrast to our holding
in Bath, where we concluded that the State made a showing by explaining that: the
witness in question “was involved with the investigation of [the] case since the date of the
offense,” “he was the lead investigator for the prosecution,” he “helped coordinate with all
law enforcement agencies," “he assisted the prosecution in preparing [the] case for trial,”
11

and “his assistance and expertise would be needed with numerous items of evidence to
be presented at trial.” Bath, 951 S.W.2d at 23.
After the first witness testified, the defense renewed its objection to the presence
of Pacheco. The State then responded:
[We have already] represented to this Court that this case is a very complex
case and that we needed Mr. Pacheco in here to sort out all these details.
There were hundreds of people that were interviewed in the process of
investigating this case. Certainly we don’t want to bring all these witnesses
in here. We are trying to. narrow it down to just the ones that are relevant to
this case, and his presence is essential.
The trial court concluded, “The State has carried its burden. They have shown that this is
a complex case so [Pacheco] will be allowed to stay.”
Again, the trial court missed its opportunity to properly exclude Pacheco from the
courtroom. The court mischaracterized the burden of the party requesting an exception
to rule 614 for an allegedly essential witness by finding “that this is a complex case so
[Pacheco] will be allowed to stay.” When deciding whether to allow an exception for a
witness who is allegedly essential to the presentation of the requesting party’s cause, the
court cannot be satisfied if the party shows that the case is complex. In such a situation,
the court must require the requesting party to show that the witness is essential. Bath, 951
S.W 2d at 23; Hernandez, 791 S.W.2dat306; SamM, 779 S.W.2d at 892. Whether or
not the case is complex makes no difference, unless the party requesting the exception for
the allegedly essential witness shows that the witness’ necessity relates to the case’s
complexity.
In addition, while the State’s new justification for the exception, that Pacheco was
needed to sort out details, was less conclusory than the earlier justification, it was
12

conclusory nonetheless. See Peters, 997 S.W.2d at 385 (requesting party’s explanation
that an investigator is very knowledgeable of witnesses is not a showing). It is not clear to
us that Pacheco’s presence in the courtroom was necessary in order for him to sort out
details. The State’s vague explanation is not in line with the showing made in Bath, where
the State specifically said its witness’s presence was essential because “his assistance
and expertise would be needed with numerous items of evidence to be presented.” Bath,
951 S.W-.2d at 23. Without a more explicit explanation, sorting out details appears to be
a task that can be performed before witnesses are called, making Pacheco's presence in
the courtroom unnecessary. In contrast, a witness, like the one exempted from rule 614
in Bath, whose knowledge and help is necessary to present items of evidence is actually
needed in the courtroom with the evidence during other witnesses’ testimony. Id. In this
case, the State’s entire support for their request amounts to nothing more than a
conclusory explanation.
In essence, the trial court overruled the appellant’s second objection to Pacheco’s
presence in the courtroom without requiring a showing by the State. Because no showing
was made, the trial court abused its discretion by allowing the exception to rule 614 for
Pacheco, as a witness whose presence was essential to the State’s presentation. Moore
v. State, 882 S.W.2d 844, 848 (Tex. Crim. App. 1994). We now examine whether the error
is reversible. Hernandez, 791 S.W.2dat306; Barnhill, 779 S.W.2d at 893. “We need not
reverse if we determine that the error did not affect appellant’s substantial rights.” Ladd
v. State, 3 S.W.3d 547, 566 (Tex. Crim. App. 1999) (citing Tex. R. App. P. 44.2(b)). “In
other words, we need not reverse if, after examining the record as a whole, we have fair

13

assurance that the error did not influence the jury’s deliberations to appellant’s detriment
or had but a slight effect.” Id.
Two relevant criteria in assessing this type of error are: (1) did the exempted
witness actually hear the testimony of the other witnesses; and (2) did the exempted
witness’s testimony contradict the testimony of a witness he actually heard from the
opposing side or corroborate the testimony of another witness he actually heard from the
same side on an issue of fact bearing upon the issue of guilt or innocence. Guerra v.
State, 771 S.W.2d 453, 475-76 (Tex. Crim. App. 1988);2 see Ladd, 3 S.W.2d at 566.
Since Pacheco was allowed to remain in the courtroom, the first criteria has been
met, and we proceed to the second. Because the defense called no witnesses, we will
only examine whether or not Pacheco’s testimony corroborated the testimony of the
witnesses he heard.
In general, Pacheco’s testimony explained the investigative process and his
involvement in the investigation. Pacheco’s testimony coincided with that of DEA agent
Tony Dominguez-and FBI agent Scott Sledd in that each testified that, based on their
knowledge, Hector was not in the federal witness protection program. Pacheco’s testimony
also coincided with Sledd's with respect to how Pacheco became involved in the

2We recognize Aguilar is more on point than Guerra, in that the former addresses how to review the
trial court's decision to allow an exception to rule 614, as is the case here, and the latter addresses how to
review the trial court's mistake of allowing a violation of rule 614 (/.e., when rule 614 is invoked without
exception, yet a witness remains in the courtroom afterwards and later testifies). Guerra v. State, 771 S.W.2d
453, 473-76 (Tex. Crim. App. 1988); Aguilar v. State, 739 S.W.2d 357, 357-60 (Tex. Crim. App. 1987).
Nevertheless, we will apply the harm analysis set out in Guerra, because it updates the same harm analysis
used in Aguilar. Guerra, 771 S.W.2d at 474-75; Aguilar, 739 S.W.2d at 359-60. However, we will not apply
the additional two-step approach from Guerra to determine what kind of witness was involved, 771 S.W.2d
at 476, as it is appropriate when analyzing harm resulting from the trial court’s allowing a violation of rule 614,
not when analyzing a trial court’s decision to allow an exception to rule 614.

14

investigation.

In addition, Pacheco’s testimony coincided with accomplice Francisco

Castaneda; When describing the events leading to the crime, Castaneda said, “At [the]
trailer park... Hugo picked up the Suburban and we left in the Suburban.” Later on in the
trial, Pacheco testified that during the investigation Castaneda took him to a trailer park and
said, “This is the mobile home where we picked up the Suburban." Our review of the
record reveals that, apart from these instances, Pacheco testified to matters not addressed
by the other witnesses. Barnhill, 779 S.W.2d at 893. Thus, we conclude that minor
portions of Pacheco’s testimony meet the second criteria of Guerra. Id.
“Nonetheless, we do not believe the error constitutes reversible error.”

Id.

Pacheco’s testimony concerned no issue of fact bearing upon the issue of appellant’s guilt
and explained the investigative process. See Guerra, 77'l S.W.2d at 475-76; Barnhill, 779
S.W.2d at 893.

His testimony that duplicates other witnesses’ testimony could be

characterized as background information that contains nothing to incriminate appellant.
Barnhill, 779 S.W.2d at 893. While the trial court abused its discretion in exempting
Pacheco from rule 614 without requiring a showing by the State, we hold that there is no
reversible error because of the harmless nature of the evidence that was improperly
introduced through Pacheco's testimony. Id. “On this record, we have fair assurance that
' the trial court’s error did not influence the jury’s deliberations to appellant’s detriment or
had but a slight effect.” Ladd, 3 S.W.3d at 566. Appellant’s fourth point of error is
overruled.
E. Hearsay
By his sixth point of error, appellant contends the trial court improperly allowed the

15

State to introduce hearsay testimony from Pacheco, resulting in reversible error. We
disagree.
Hearsay is defined as a statement, other than one made by the declarant while
testifying at the trial, offered in evidence to prove the truth of the matter asserted. Tex. R.
Evid. 801(d). The admissibility of hearsay evidence is a question for the trial court,
reviewable under an abuse of discretion standard. See Coffin v. State, 885 S.W.2d 140,
149 (Tex. Crim. App. 1994).
Before the prosecution began its direct examination of Pacheco a hearing was held
outside the presence of the jury. Defense counsel objected on the basis that “anything
[Pacheco] would have to offer... other than what he actually did ... would be hearsay.”
The trial court overruled the objection. Counsel then objected to the introduction of
Pacheco’s report on the basis of hearsay, and the court sustained the objection. After the
jury was called, counsel objected when Pacheco was asked about specific statements
made by other agents on the case.3 In response to these objections, the State explained
the testimony was not being offered for proof of the truth of the matter asserted. Rather,
the State argued, the testimony was offered to give background information and help the
jury understand the investigation. The court agreed with the State and overruled both
objections.
3The following answers followed appellant’s respective objections:
Pacheco: On July 24th of ‘97, Cumendante Oscar Alaniz had called me on the telephone
saying he was trying to get a hold of the FBI and he had information about the Suburban to
give them. I went ahead and took the information and called the FBI and gave them that
information. . ..
On August 4th, ‘97,1 received the results of an interview conducted by the FBI and also DEA
Agent Tony Dominguez and McAllen PD investigator Ralph Ramirez of one of the suspects,
Victor Hugo Rojas, in Reynosa.

16

After reviewing the record, it appears neither statement was made in order to prove
the truth of the matter asserted. The purpose of Pacheco’s answers was to explain the
investigative procedures followed in this case. Whether or not Pacheco was actually called
or advised by agents does not depend on the truth of what these agents said. The
testimony of which appellant objects does not meet the definition of hearsay. Tex. R. Evid.
801(d). The trial court did not abuse its discretion by overruling appellant’s objections.
Appellant's sixth point of error is overruled.
F. Custodial Interrogation
In his fifth and seventh points, appellant contends his interview with investigators,
before he was charged, was a custodial interrogation. As a result of the alleged custodial
interrogation, appellant argues that his privilege against self-incrimination4 and his due
process rights5 were violated. We disagree.
The initial determination of custody depends on the objective circumstances of the
interrogation, not on the subjective views of the officer or the person being questioned.
Stansbury v. California, 511 U.S. 318, 323 (1994). Here, Pacheco testified: (1) appellant
was a suspect but was not under arrest at the interview; (2) arrangements were made, at
appellant’s request, for him to make a phone call during the interview; (3) no statement

4After being taken into custody by law enforcement officers, a person must be warned that any
statement made may be used as evidence against the person. See Stansbury v. California, 511 U.S. 318,
323 (1994) {citing Miranda v. Arizona, 384 U.S. 436, 444 (1966)) (emphasis added).
Appellant alleges several violations of his due process rights under article 38.22 of the code of
criminal procedure. This article outlines when statements from accused persons may be used. Tex. Crim.
Proc. Code Ann. § 38.22 (Vernon 1979 and Supp. 2003). The article requires warning to be given and tape
recording made prior to taking a defendant’s statement. Tex. Code Crim. Proc. Ann. § 38.22(2-3) (Vernon
1979 and Supp. 2003). However, it only applies to statements obtained as result of custodial interrogation.
Rathmell v. State, 653 S.W.2d 498, 501 (Tex. App.-Corpus Christi 1983, pet. refd) (emphasis added).

17

was taken during the interview; and (4) appellant left the interview freely and said he would
call the officers the next day about his decision to cooperate or not.
In light of the above circumstances, we conclude the interview was not a custodial
interrogation. Appellant’s fifth and-seventh points of error cannot stand because his due
process and self-incrimination arguments depend upon a conclusion that the interview was
a custodial interrogation. We overrule both points of error.
IV. Conclusion
Because we have sustained appellant’s first point of error, we reverse appellants
conviction for capital murder and render an acquittal. The remaining points are all
overruled. Appellant’s conviction and sentence for aggravated kidnapping will stand. We
AFFIRM the judgment of the trial court in part and REVERSE AND RENDER in part.

CZlNDA REYNA YANEZ
Justice

Do not publish. Tex. R. App. P. 47.2(b).
Opinion delivered and filed this the
14th day of August, 2003.

'v '

18

AT V-

o’cloc;

M

Case No. II] U1US w /'
J
(The district clerk of the county dfconviction will fill in this blank.) MAY 05 2020
SA, CLERK

IN THE COURT OF CRIMINAL APPEALS OF TEXASCourts Hidalgo County
fDepjty#43
APPLICATION FOR A WRIT OF HABEAS CORPUS
SEEKING RELIEF FROM FINAL FELONY CONVICTION
UNDER CODE OF CRIMINAL PROCEDURE ARTICLE 11.07

f<?

NAME:
DATE OF BIRTH:

t Jr.____________

. - ... .......

in« /?Y [e f')__________________ .

PLACE OF CONFINEMENT: TTP.CJ. AMu^Uejs Linlfj feaife^vUUjTk
WARDEN:______ _________J______
TDCJ-CID NUMBER:
(1)

(2)

SID NUMBER:

OlO)

This application concerns (check all that apply):
IS

a conviction

□

parole

□

a sentence

□

mandatory supervision

□

time credit

□

out-of-time appeal or petition for
discretionary review

What are the court number and county of the district court in which you were
convicted?
cjQ.nA. btst* Courtj

(3)

Courxiyj "Texas

What was the case number in the trial court? (Put only one case number here, even if
it includes multiple counts. You must make a separate application on a separate form for
other case numbers.)

CR-QilDl-OO-A
(4)

What was the name of the trial judge?
(Aon, Home^r talmas

Article 11.07 Writ Application Form

\

Appy*Ip

Revised 2018

(5)

Were you represented by counsel? If yes, provide the attorney’s name:
Yes - f-je c4or^L \A/ka/re-ol

(6) .

What was the date that the judgment was entered?
Oc4.

(7)

22000

For what offense were you convicted and what was the sentence?
CZapH-al lYlurdey ~ Ai-Pe.

(8)

If you were sentenced on more than one count of an indictment in the same court at
the same time, what counts were you convicted of and what was the sentence in each
count?

Caprktl

- L\ -Te.

.

/jggrciVci'fe.cl Kidnapping -■ ^ ft yrs .

(9)

What was the plea you entered? (Check one.)
□ guilty-open plea
(2L not guilty

□ guiltv-plea bargain
□ nolo contendere/no contest

If you entered different pleas to counts in a multi-count indictment, please explain:

(10)

What kind of trial did you have?
□ no jury

Article 11.07 Writ Application Form

IS jury for guilt and punishment
□ jury for guilt, judge for punishment

2

Revised 2018

(11)

Did you testify at trial? If yes, at what phase of the trial did you testify?
j\l‘Q

(12)

Has your sentence discharged? & yes

SI no

(13)

If you answered yes, when did your sentence discharge? dgg- kidnapping
Vctcci4ed by T~ccfi
Did you appeal from the judgment of conviction?
&oubk Jeopardy

□ no

'ET yes

If you did appeal, answer the following questions:
(A) Which court of appeals decided the appeal? 13f/>
(B) What was the case number?

o-P Apfit,qIt

/3-PQ-771-CR

(C) Were you represented by counsel on appeal? If yes, provide the attorney’s
name :

1-iecW JT Vt7l Q

(D) What was the decision and the date of the decision? Reversed Capita I
/^ard-er-j'ur/.<rdic4f<?*i; q■f-fvr/yW ,4gcf~ ktdnapp/ny - Auy.
(14)

3QQ3

Did you file a petition for discretionary review in the Court of Criminal Appeals?

8 yes sici4-e!s AppilaI

□ no

If you did file a petition for discretionary review, answer the following questions:
(A) What was the case number?

A/n,

(B) What was the decision and the date of the decision?
(Obanfj
(15)

_
/fyyrefkaf-g.

staffed C.<iprbal Murder* - Oct 13 i atQ&rf

Have you previously filed an application for a writ of habeas corpus under Article
11.07 of the Texas Code of Criminal Procedure challenging the conviction in this
case number?

JS yes

□ no

If you answered yes, answer the following questions:
(A) What was the Court of Criminal Appeals’ writ number? La)R-8Ij 853-01
(B) What was the decision
I
Article 11.07 Writ Application Form

3

Revised 2018

(C) Please briefly explain why the current grounds were not presented and could
not have been presented in your previous application.
The, (J,S. Supreme. Court nlade a new ruiinj In R Jft A/akisto V.
fzufnp?an C-wiy.; l3(o 5.C4. 110*10 faotfo) ncrtaVailobU- ~fo t^-f/fioner £or
previous & tt.Ql^ S-taTrij a /ieu) 2-sJ-e.p fule.

Aeierryune. \Z/olat/ons

of exf'rai'eyrrfoncil jurisdiction* 'Tjf provgs lex'gts- Acic//lajurf.5<if£'/'/6^
Oifey* murder m lYlexic.es that -f/iig ease j/ivolve^.TIC,CVP.-5
(16)

Do you currently have any petition or appeal pending in any other state or federal
court?
□ yes

(3 no

If you answered yes, please provide the name of the court and the case number:

(17)

If you are presenting a time credit claim, other than for pre-sentence jail time
credit, have you exhausted your administrative remedies by presenting the time
credit claim to the time credit resolution system of the Texas Department of
Criminal Justice? (This requirement applies to any final felony conviction, including
state jail felonies.)
□ yes

□ no

If you answered yes, answer the following questions:
(A) What date did you present the claim to the time credit resolution system?

(B) Did you receive a decision and, if yes, what was the date of the decision?

If you answered no, please explain why you have not presented your time credit
claim to the time credit resolution system of the Texas Department of Criminal
Justice:
Article 11.07 Writ Application Form

4

Revised 2018

(18)

Beginning on page 6, state concisely every legal ground for why you think that you
are being illegally confined or restrained and then briefly summarize the facts
supporting each ground. You must present each ground and a brief summary of the
facts on the application form. If your grounds and a brief sum mary of the facts have
not been presented on the application form, the Court will not consider your
grounds. A factual summary that merely references an attached memorandum or
another ground for relief will not constitute a sufficient summary of the facts.
If you have more than four grounds, use pages 14 and 15 of the application form,
which you may copy as many times as needed to give you a separate page for each
ground, with each ground numbered in sequence. The recitation of the facts
supporting each ground must be no longer than the two pages provided for the
ground in the form.
You may include with the application form a memorandum of law if you want to
present legal authorities or provide greater factual detail, but the Court will not
consider grounds for relief set out in a memorandum of law that were not raised on
the application form. The memorandum of law must comply with Texas Rule of
Appellate Procedure 73 and must not exceed 15,000 words if computer-generated or
50 pages if not. If you are challenging the validity of your conviction, please include
a summary of the facts pertaining to your offense and trial in your memorandum of
law.
If the application form does not include all of the grounds for relief,
additional grounds brought at a later date may be procedureHy barred.

Article 11.07 Writ Application Form

5

Revised 2018

GROUND ONE:
-fed-ihnneys C&MViciion iS v^oicl -frow f-j-s inc.e.pi'iak -Pc^ uJgn"f crp gx~frci"~
4~&rr/foK/ct(jurtsdichehj violcdiii^ SoksdqnTixr-g- Dae froces^

FACTS SUPPORTING GROUND ONE:
fiJQ5 cons/jcded of CQp/fai mco-deK1

Vehicle. of/l ers

nr^ufiA he sappil'eA
|M MiflUeH

im

CIS Cl

pai-4y.7Tig ^~4nfe

ilie kic/na^m^ of a mar\

cuas ^oken '/>rfo Mexico dfld labe^ /Murdered* Oft d ureclL,

appeal file c.ourf o\ief\tirneA -idie /Murder con'/tchon for lock ofjUrtsdic'lldH
•for

occurring tv\ fYl^xica.'the .s/gfe Qppe.ole.c/ and flie TiC,C.A_._

reversed S-fafiVff fcvd^appA^ /5

cim

&(ew£nt of CQp//aI murder, >s~o s/afe

jar/scficfio^ Iquj allowed prose.cuiiibK 4W* murder m Mexico* 563
l?ndrv^ue.2:- \/, ^-fg-j-e .

iV-fif oner argued

5. a/. 3d £ 7y 606^), 0/7 f/rsd hob eoj

ccr^ac

^ofd'jUr/rd/cf/cK lauJ ci/ed by file 7TC.C.A

Could Mof cipply jgxfraferr/fcsr/ally. The sfnfe /node.

mo

ra/mg on fllg.

/Sfiu-e qW dented relief. .^^kse^upAly, the U.S, Supreme Court cfer/f/ed

/ft /?JR A/qt>/scOj <34 J.C-/, a2o7o,£(Oj fzo/C>) a/Aaf Consffj-uj^es'extrci-

-iirnkoriai hy creahn^ a -fuJ&'s4&p atialys'is. Ftrsf f/ie Court 05^.5

u)lie4Ker ike s/adufe relied upo*i gii/pf a clear indication i-f* qppAes

Article 11.07 Writ Application Form

6

Revised 2018

extraterniori ally. (Tfexeu *cfo..&s

-£~£ •fherv. t-S* na /ndtccdMOh, +/i£

dourt ^proce.eds ~fo stetp •/■uJoP deye -f/ie Coai-d /ooks eft" -hk-fc *-fo<iu-s~
O'?* fke r <n^~f -f-^

C.anAueff re/pv/^H^ 4°
lk kgs-

q

<n /nereJy d^mg-Th c

<3 ppltcafooH

.* .IL-ir -frke-

stcrfu-ffes fcca? nccuyrpd Tk ike U-.S.} fk€.w

per>ni.ssfipl-e. cJ&*yiP5~f~/c apphcattaki fix/en i-ft ofAe^ Coftduc.'f

tOCCCirre d q/a^rtarl J hut l-£ fke Conducf

fo tkg ~PocU5~ occurred

abroctc/j ilipm fke c.<are /jn/ofoi/e? cm nr,perpyitssitU ^xtraterritorial
application yp^or^lpcr to-f" q/i y ntheir conduct J-hat accursed iu\ U.S
4‘p‘Cr/ tary> ~fhe.

Murder, as

Cqp//nl flIotKdeK ■S’/rduf?? -F/rjf trocuSes on -fAe.

klie, i3fk Taarf oF

oy/gmatly ordered.

pKOVGS irt this C-QJf a IfiAnapptn^ /"m -ftiC- (J.5^ do€r

Afak\Sc.Q
^r’gnf"

gxfyorder/'vA&r/af jurf-rd/cf/ca-* ni/<*K c? Murder in HYlexic fc ^ gV^Lh i~P

•fke. rkgry* /r cc</o /tn( murA+r. Murder and kfdnctp/jinj ore 'crimes!

Capital Murder is ' puni^hMent -&>r murAcr durfiny j^tAvtappUrj.
"TtieTC.C.fl* ern*d by re-ferm^ te> the issue, as

’territorial j i^fte.gc(

o~T ''extrahe-rc/tor/cil t fJiererRare -fkeir pre.\Zioux ruling Mast lor rtY£T.ced>

cmd

qc^uitfal rendered due do lack o^jururdicttcti 4o try -flits coJt>

Article 11.07 Writ Application Form

7

Revised 2018

